any plan merchant or financial institution to honor your Card. Also,
we are not responsible for goods or services that you purchase with
the Card unless: (a) your purchase was made in response to an advertisement we sent or participated in sending you; or (b) your purchase cost more than $50 and was made from a plan merchant in
your state or within 100 miles of your home; and only if you have
made a good faith attempt, but have been unable to obtain satisfaction from the plan merchant. You must resolve all other disputes directly with the plan merchant. We do not warrant any merchandise or
services purchased by you with the Card.

Statements and Notices. Statements and notices will be mailed to
you at the most recent postal address or e-mail address (if you have
elected to receive such documents via electronic means) you have
given us. Notice sent to any one of you will be considered notice to all.

Notification of Address Change. You will notify us promptly if you
change your address for any reason. In order to prevent identity theft,
your identity may need to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of
this Agreement.

Governing Law. This Agreement shall be construed under federal
law and state law in the state in which we are primarily located, and
the venue shall be located in the county and state in which we are primarily located. Operating regulations of Visa may also apply. This
Agreement is the contract that applies to all transactions even though
the sales, cash advance, convenience check, credit or other slips you
sign or receive may contain different terms.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the
date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the
address(es) listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us,
but if you do, we are not required to investigate any potential errors
and you may have to pay the amount in question.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase. To use this right,
all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at the address(es) listed on your
statement.
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you
do not pay, we may report you as delinquent.

When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.

M-101813

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.

What Will Happen After We Receive Your Letter

FI13286 Rev 6-2010

©2005 Securian Financial Group, Inc. All rights reserved.

Southeast Financial Credit Union

444 James Robertson Parkway, P.O. Box 331788
Nashville, TN 37203
(615) 743-3700 or (800) 521-9653
VISA SECURED CREDIT CARD AGREEMENT

In this Agreement, “You” and “your” mean any person who accepts
this Agreement or uses the Card. The “Card” means any credit card
issued to you or those designated by you under the terms of this
Agreement. “We”, “us”, “our” and the “Credit Union” means Southeast Financial Credit Union or its successors.
SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO
SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS
AGREEMENT. YOU ALSO AGREE THAT WE HAVE SIMILAR
STATUTORY LIEN RIGHTS UNDER STATE AND/OR FEDERAL
LAW. THE GRANTING OF THIS SECURITY INTEREST IS A
CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS
AGREEMENT. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR SHARES TO THE AMOUNT YOU OWE. Shares and deposits in an Individual Retirement Account or any other account
that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans may
also secure your obligations under this Agreement, unless that
other collateral is your principal residence or non-purchase money
household goods.

Using Your Card. You can purchase or lease goods and services from
any merchant who honors your Card, and you may obtain cash advances from financial institutions and ATM machines that accept the
Card, up to your maximum credit limit. You agree not to present your
Card or obtain a cash advance for any extension of credit in excess of
your available credit limit ; however, if you do exceed your credit limit,
you agree to make immediate payment sufficient to bring the balance
below the credit limit. Certain purchases and cash advances require
authorization prior to completion of the transaction. In some cases, you
may be asked to provide identification. If our system is not working, we
may not be able to authorize a transaction, even though you have sufficient credit available. Also, for security reasons, we may block the use
of your Card in certain countries or geographic areas. We will have no
liability to you or others if any of these events occur.

Personal Identification Number (PIN). We may issue a Personal
Identification Number (PIN) for use with your Card. This PIN is confidential and should not be disclosed to anyone. You may use your PIN
and your Card to access your account, and all sums advanced will be
added to your account balance. In the event a use of your PIN constitutes an Electronic Funds Transfer, the terms and conditions of your
Electronic Funds Transfer Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases, cash advances, and balance transfers made by you or any-

one whom you authorize to use the Card; (b) all Interest Charges and
all other charges or fees; (c) collection costs and attorneyʼs fees as
permitted by applicable law, and any costs incurred in the recovery of
the Card; and (d) credit in excess of your credit limit that we may extend to you.

Illegal Transactions: You agree that your Card and account will not
be used to make or facilitate any illegal transactions as determined by
applicable law; and that any such use will constitute an event of default under this Agreement. We may decline any transaction that we
believe to be illegal under applicable law, including but not limited to
any transaction involving or relating to any gambling activity. You
agree that we will have no liability or responsibility for any such use
by you or any authorized user(s); or for declining any such transaction. You further agree to indemnify and hold us harmless from any
suits, liability, damages or adverse action of any kind that results directly or indirectly from such illegal use. You promise to pay us any
and all amounts owing on your Card for any transactions made by
you, even if the transaction is determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for the repayment of amounts owed, regardless of who initiated
any transaction under the account.

Others Using Your Account. If you allow anyone else to use your
account, you will be liable for all credit extended to such persons. You
promise to pay for all purchases and advances made by anyone you
authorize to use your account, whether or not you notify us that he or
she will be using it. If someone else is authorized to use your account
and you want to end that personʼs privilege, you must notify us in writing, and if he or she has a Card, you must return that Card with your
written notice for it to be effective.

Ownership of Card. Your Card remains our property and may be
cancelled by us at any time without notice. You agree to surrender
your Card and to discontinue use of the account immediately upon
our request.

Interest Charges. Average Daily Balance including new transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we
take the beginning balance each day, add any new purchases, cash
advances, balance transfers or other advances, and subtract any
payments, unpaid interest charges, and unpaid late charges. This
gives us the daily balance. Then, we add up all the daily balances for
the billing cycle and divide that by the number of days in the billing
cycle. We then multiply that by the periodic rate corresponding to the
Annual Percentage Rate on your account. If you have different rates
for purchases, cash advances or balance transfers, separate average daily balances for each will be calculated and the appropriate periodic rate is then applied to each.

Grace Period on Purchases Only: You can avoid Interest Charges
on purchases by paying the full amount of the new balance for purchases each month by the date on which the payment is due. Otherwise, the new balance of your account, and subsequent advances
from the date they are posted to the account, will be subject to an Interest Charge. You cannot avoid Interest Charges on cash advances;
even if you pay the entire cash advance balance by the payment due
date, you will incur the Interest Charges accrued from the date the
cash advance is posted to your account.
Fees. In addition to the Interest Charges set forth above, you agree

to also pay any and all fees that you incur as disclosed to you on your
Truth-in-Lending Statement or similar disclosures (as may be
amended from time to time), or as disclosed to you during the term of
your Card.

If Your Card is Lost or Stolen or if an Unauthorized Use Occurs.
You agree to notify us immediately if your Card is ever lost or stolen
or if an unauthorized use may have occurred. “Unauthorized use”
means the use of the Card by someone other than you who does not
have actual, implied or apparent authority for such use, and from
which you receive no benefit. The telephone number to call is (800)
449-7728. You agree to follow up your call with notice in writing to:
P.O. Box 31112, Tampa, FL 33631-3112. You also agree to assist us
in determining the facts, circumstances and other pertinent information relating to any loss, theft or possible unauthorized use of your
Card and comply with such procedures as we may require in connection with our investigation. You will be liable for any unauthorized
use only if we can prove that you were grossly negligent in your use
or handling of your Card, or if we can prove that you used your Card
fraudulently.

Minimum Payment Due; Crediting of Payments. Payments are due
in the amount and on the date disclosed on your billing statement. If
your payment is received by us on a business day at the address and
by the time designated on the billing statement, it will be credited to
your account on the date of receipt. If payment is made at any location other than the address designated on the periodic statement,
credit for such payment may be delayed up to five (5) days. Payments
will be applied in any order we determine, subject to applicable law.

Default; Acceleration; Credit Suspension; Collection Costs. You
will be in default if: (1) you fail to make any payment on time; (2) if you
fail to keep any promises you have made under this Agreement or
under other Agreements you have with us; (3) if you die; (4) if you file
a petition in bankruptcy or have a bankruptcy petition filed against
you, or if you become involved in any insolvency, receivership or custodial proceeding; (5) if anyone attempts to take any of your funds
held by us via legal process or if you have a judgment or tax lien filed
against you; (6) if you make any false, inaccurate, or misleading statements in any credit application or credit update; or (7) if we, in good
faith, believe that your ability to repay what you owe is or soon will be
impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment
of your full account balance without giving you notice. If immediate
payment is demanded, you agree to continue paying interest charges
and fees until what you owe has been paid, and any shares that were
given as security for your account may be applied towards what you
owe. You agree to pay all reasonable costs of collection, including
court costs and attorneyʼs fees, and any costs incurred in the recovery of the Card, subject to applicable law. Even if your unpaid balance is less than your credit limit, you will have no credit available
during any time that any aspect of your account is in default.

Additional Benefits/Card Enhancements. We may from time to
time offer additional services to your Account at no additional cost to
you. You understand that we are not obligated to offer such services
and may withdraw or change them at any time.

Convenience Checks. We may, at our discretion, issue checks to
you which may be used for any purpose other than making a payment for credit to your account. By signing such check, you authorize us to pay the item for the amount indicated and post such amount

as a cash advance to your account. We do not have to pay any item
which would cause the outstanding balance in your account to exceed your credit limit.

Credit Information. We may from time to time request personal information from you or obtain credit reports from the credit reporting
agencies for the purpose of updating your credit status. Your failure to
provide such information when requested by us may result in suspension of credit privileges under this Agreement, including your ability to obtain any future advances by any means. You authorize us to
investigate your credit standing when opening or reviewing your account. You authorize us to disclose information regarding your account
to credit bureau and creditors who inquire about your credit standing.

Foreign Transactions; Currency Conversion. Purchases and cash
advances made in foreign currencies will be billed to you in U.S. dollars. The conversion rate in dollars will be a rate selected by the card
company from a range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate the card company itself receives, or the governmentmandated rate in effect for the applicable central processing date in
each instance. All transactions processed outside of the United States
(which may include internet transactions) will be charged a foreign
transaction fee in the amount disclosed on your Truth-in-Lending
Statement (as amended from time to time).

Termination; Change-in-Terms. We may, by written notice, terminate this Agreement at any time, subject to applicable law. You may
terminate this Agreement by written notice. Termination by either party
shall not affect your obligation to repay any payments made for your
account resulting from use of the Card as well as Interest Charges
and fees incurred. We may change the terms of this Agreement, including the method of calculating the periodic rate, at any time, by
written notice, subject to applicable law. Use of the Card constitutes
agreement and acceptance of any change in terms, unless applicable law requires otherwise. Our failure to exercise any of our rights or
to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.

Late or Partial Payments. Any payment that delays the reduction of
your balance will increase your total interest costs. Partial payments
or prepayments will not delay your next scheduled payment – you will
still need to make the minimum scheduled payment by the next
scheduled due date to keep your account current. We may accept
late payments, partial payments, checks or money orders marked
“payment in full” and such action shall not constitute final settlement
of your account or a waiver or forgiveness of any amounts owing
under this Agreement.

Enforcement. We do not lose our rights under this or any related
agreement if we delay enforcing them. If any provision of this or any
related agreement is determined to be unenforceable or invalid, all
other provisions remain in full force and effect.

Returns and Adjustments. Merchants and others who honor the
Card may give credit for returns or adjustments, and they will do so
by submitting a credit slip which will be posted to your account. If your
credits and payments exceed what you owe us, the amount will be
applied against future purchases and cash advances. If the credit balance amount is $1 or more, it will be refunded upon your written or
verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of

